No. 20-1613
IN THE

Supreme Court of the United States
JOHN WAYNE COLLINS,
Petitioner,
v.
JAMES DAVID GREEN, WARDEN
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Edward Williams, a member of the bar of this Court, hereby certify that, on
this 28th day of July, 2021, all parties required to be served have been served the Reply
Brief for Petitioner in this matter by overnight courier to the address below.
DANIEL CAMERON
Attorney General of Kentucky
JAMES HAVEY
Assistant Attorney General
KENTUCKY OFFICE OF SOLICITOR/ATTORNEY GENERAL
CRIMINAL APPEALS UNIT
1024 Capital Center Drive, Suite 200
Frankfort, KY 40601
(502) 696-5342
james.havey@ky.gov

EDWARD WILLIAMS
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
ed.wiilliams@wilmerhale.com

